STATEMENT OF SERVICE
Case Nos. 18A1165, 18A1166
Case Title:

Larry Householder, et al. v. Ohio A. Philip Randolph Institute, et al.;
Steve Chabot, et al. v. Ohio A. Philip Randolph Institute, et al.

Type of Document:
Respondents’ Opposition to Application for Stay
Date documents were hand-delivered to the U.S Supreme Court:
May 20, 2019 by 3pm
Date documents were emailed to the Court and opposing counsel:
May 20, 2019 by 3pm
The motion was also electronically filed to Court today, May 20, 2019 by 3pm.
Name, addresses and email addresses of individual served:
Benjamin Michael Flowers
Counsel of Record Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
benjamin.flowers@ohioattorneygeneral.gov
Efrem M. Braden
Counsel of Record Baker & Hostetler LLP
1050 Connecticut Avenue NW
Suite 1100
Washington, DC 20036
mbraden@bakerlaw.com

/s/ T. Alora Thomas
T. Alora Thomas
Counsel of Record for Respondents
American Civil Liberties Union
Foundation, Inc.

